Department of Homeland Security
   Ofﬁce of Inspector General

 The U.S. Immigration and Customs Enforcement 

    Process for Authorizing Medical Care for 

             Immigration Detainees





OIG-10-23                           December 2009
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      December 3, 2009

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the Treatment Authorization
Request process that U.S. Immigration and Customs Enforcement uses to arrange and pay
for the medical care of immigration detainees. We based the report on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Review ................................................................................................................4


     Strategic Redirection of the Authorization Process Is Needed......................................5 


     Managed Care Coordinators Face a Variety of Challenges...........................................9 


     Detention Facilities Need Assistance Working With Providers .................................12 


Management Comments and OIG Analysis ......................................................................17 


Appendixes
     Appendix A:           Purpose, Scope, and Methodology.......................................................22 

     Appendix B:           Management Comments to the Draft Report .......................................24 

     Appendix C:           Major Contributors to This Report ......................................................27 

     Appendix D:           Report Distribution ..............................................................................28 


Abbreviations
     DIHS                  Division of Immigration Health Services 

     DRO                   Office of Detention and Removal Operations 

     FSC                   Financial Services Center 

     ICE                   Immigration and Customs Enforcement 

     MCC                   Managed Care Coordinator 

     OIG                   Office of Inspector General 

     OPLA                  Office of Principal Legal Advisor 

     TAR                   Treatment Authorization Request           

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                 United States Immigration and Customs Enforcement must provide
                 or arrange for the medical care of immigration detainees. For
                 nonemergency care, facilities are required to submit a Treatment
                 Authorization Request when detainees need health services.
                 Managed care coordinators evaluate these requests based on
                 existing coverage policy. We evaluated the effectiveness of the
                 process used to authorize care for immigration detainees.

                 The managed care coordinators expressed concern regarding
                 insufficient staffing to meet the workload. From October 2006
                 through March 2009, Immigration and Customs Enforcement
                 received more than 110,000 requests for offsite medical care. We
                 identified a variety of limitations that hinder the processing of
                 requests, such as administrative burdens and incomplete
                 submissions.

                 We determined that the existing medical treatment request process
                 can be improved through a reduction in the amount of pre-
                 authorization review, expansion of case management functions,
                 and improvement in relationships with outside medical providers
                 who deliver care to immigration detainees. We are making 10
                 recommendations to improve the process for authorizing medical
                 care for immigration detainees.




               The U.S. Immigration and Customs Enforcement Process for 

                  Authorizing Medical Care for Immigration Detainees 


                                        Page 1
Background
       ICE Required to Provide Health Care
               U.S. Immigration and Customs Enforcement (ICE) is responsible for
               protecting national security by enforcing customs and immigration laws.
               The Immigration and Nationality Act authorizes ICE to arrest, detain, and
               remove certain aliens.1 ICE detains more than 32,000 aliens on an average
               day. Within ICE, the Office of Detention and Removal Operations (DRO)
               ensures safe and humane conditions of confinement. This includes an
               obligation to provide adequate health care for detainees.

               Although the government must act with deliberate indifference to the
               serious medical needs of a detainee in order for any defect in the provision
               of medical care to rise to the level of a constitutional violation,2 ICE’s
               Office of the Principal Legal Advisor (OPLA), attempts to ensure that
               detention facilities exceed constitutional standards when providing
               medical care. Further, although defects in care resulting from either
               medical malpractice or negligent conduct do not necessarily meet the
               “deliberate indifference” standard for a constitutional violation, such
               conduct could potentially give rise to liability under the Federal Tort
               Claims Act, which allows the government to be sued “under circumstances
               where the United States, if a private person, would be liable to the
               claimant.”3

               The Division of Immigration Health Services (DIHS) is the ICE medical
               authority. In an October 2007 agreement between ICE and the
               Department of Health and Human Services, DIHS clinicians were detailed
               to ICE. They provide care at ICE-owned Service Processing Centers and
               Contract Detention Facilities that private organizations manage. County
               facilities that detain immigrants may use DIHS personnel, but usually
               provide onsite care to detainees through contracted medical providers or
               county health department staff.

               The health program for ICE detainees employs a managed care model. As
               part of this model, DIHS adopted a Covered Services Package to outline
               general medical coverage policies.4 The package was implemented in
               2005, before DIHS became a part of ICE. OPLA believes that the
               Covered Services Package allows sufficient discretion for providers and
               physicians to obtain medically necessary treatment, even for services not

1
  8 USC § 1226, 1227, 1229, and 1357. 

2
  Despaigne v. Crolew, 89 F.Supp.2d 582, 585-6 (E.D. Pa. 2000). 

3
  28 U.S.C. § 1346(b) 

4
  http://www.icehealth.org/ManagedCare/Combined%20Benefit%20Package%202005.doc.


                     The U.S. Immigration and Customs Enforcement Process for 

                        Authorizing Medical Care for Immigration Detainees 


                                              Page 2
                 specifically covered. Some cases of delayed authorization have occurred,
                 prompting interest groups to allege that ICE has difficulty providing
                 necessary care to immigration detainees.

        The Process of Providing Health Care to Immigration Detainees
                 Although the ICE detainee population differs from enrollees in
                 commercial managed care organizations, DIHS management views the
                 managed care model as necessary for immigration detainees. ICE
                 detainees generally have poor health status; many have not had access to
                 regular care for years, if ever.5 A managed care approach allows for some
                 level of case management that can track an individual’s care, ensure
                 proper follow-up, and improve overall health status.

                 The medical clinics that are part of immigration detention facilities can
                 provide different kinds of care to detainees. Onsite medical personnel
                 conduct a detainee’s intake medical exam and the physical exam that is
                 required within 14 days of a detainee’s arrival at the detention facility.

                 Pursuant to ICE detention standards, facilities must provide detainees an
                 “unrestricted opportunity to freely request health services.”6 This ongoing
                 period for detainees to request care is referred to as sick call. A detainee
                 may request health care that onsite clinicians can provide without further
                 review from DIHS headquarters in Washington, D.C. However, when the
                 sick call process identifies a need for care that exceeds the capability of
                 the onsite clinic, the facility submits a Treatment Authorization Request
                 (TAR) via an online system called TARWeb. The system is used to
                 authorize payment for detainees’ offsite medical care.

                 TARs serve two important purposes: They limit nonemergency offsite
                 medical treatment to that within the Covered Services Package, and they
                 guarantee eventual payment to the offsite medical service provider.
                 Emergency care does not require prior authorization. In emergencies, the
                 TAR is submitted as soon as possible after treatment, to facilitate
                 subsequent payment to the health care provider.

                 Managed care coordinators (MCCs), nurses assigned to DIHS
                 headquarters, review TARs to ensure that the requested care is within the
                 scope of the Covered Services Package. When a TAR submission is
                 incomplete, the MCC will deny it. However, the detention facility can
                 amend and resubmit the request. When the TAR is complete and appears

5
  ICE testimony from Congressional hearing on “Medical Care and Treatment of Immigration Detainees 

and Deaths in DRO Custody,” March 3, 2009. 

6
  ICE/DRO Detention Standard: Medical Care, page 16.

http://www.ice.gov/doclib/PBNDS/pdf/medical_care.pdf.


                       The U.S. Immigration and Customs Enforcement Process for 

                          Authorizing Medical Care for Immigration Detainees 


                                                Page 3
            to be within the Covered Services Package, an MCC will approve the
            request. When the TAR is complete, but the requested treatment appears
            to be outside the Covered Services Package, the MCC will deny the
            request. When this happens, the facility can resubmit the request with
            more medical justification, or discuss the request with the DIHS Medical
            Director; in either case, the TAR might then be approved.

            After care is approved, facilities schedule medical appointments, generally
            with doctors or hospitals in surrounding communities. Figure 1 illustrates
            the TAR process.

            Figure 1. The Treatment Authorization Request Process for Nonemergency
            Care




            Source: Office of Inspector General, derived from multiple sources.

            MCCs are critical to the interaction between ICE and offsite medical
            providers. MCCs can lessen problems that facilities and health care
            providers encounter, such as difficulty locating an appropriate specialist,
            difficulty obtaining a timely appointment, or slow payment of a claim.

Results of Review
     Our review focused on the process to authorize offsite medical treatment, rather
     than an evaluation of the treatment provided. Since more than 97% of TARs are

                  The U.S. Immigration and Customs Enforcement Process for 

                     Authorizing Medical Care for Immigration Detainees 


                                            Page 4
currently approved, the TAR process should be changed to decrease the amount
of pre-service review. In addition, the role of the MCC should be changed to
ensure more case management for detainees and more support to detention
facilities. ICE also must ensure that its medical claims processor receives needed
funding more rapidly. This will decrease the amount of interest paid to providers
for overdue medical claims and improve the relationships between ICE and the
medical professionals who provide care to immigration detainees.

Strategic Redirection of the Authorization Process Is Needed

               The Current Process Is Inefficient

               The current TAR process places a great deal of pressure on the
               MCCs, for limited gain. Based on data for the 30 months from
               October 2006 through March 2009, detention facilities and Border
               Patrol stations submitted 110,538 TARs. This was an average of
               850 TARs per week. Few of these requests were denied. Initially,
               MCCs denied only 8,106 (7.3%) of these TARs, but even this low
               rate significantly overstates the frequency of care denial.

               Denied TARs frequently lacked information needed for processing,
               even though the requests for care were legitimate. ICE data
               demonstrated that thousands of TARs were denied initially because
               the facility did not include the detainee’s Alien Number. MCCs
               said that facilities would resubmit denied TARs that did not
               include an Alien Number or other necessary information, such as
               greater detail about the detainee’s medical needs. After the
               facilities provide additional information, the MCC often grants
               approval. Thus, at many facilities actual denials of care are very
               uncommon. No facility staff we interviewed expressed concern
               that the TAR process was denying medically necessary care.

               The percentage of denied TARs has declined, as illustrated in
               figure 2.




             The U.S. Immigration and Customs Enforcement Process for 

                Authorizing Medical Care for Immigration Detainees 


                                      Page 5
        Figure 2. Rate of TAR Denials, October 2006–March 2009



         10.0%

          9.0%

          8.0%

           7.0%

           6.0%

Percentage 5.0%

           4.0%

           3.0%

           2.0%

            1.0%

            0.0%

                      FY07
                                         FY08
                                Fiscal Year                 FY09


        Source: DIHS.

        In FY 2007, 4,584 TARs were denied, an average of 382 per
        month. In contrast, in the first half of FY 2009, only 589 were
        denied, fewer than 100 per month. We believe that the decrease is
        in part attributable to the training Border Patrol employees
        received in October 2008, which exposed them to the correct
        procedure for submitting TARs. This helped the Border Patrol
        reduce TAR denials. Additionally, facilities noted that MCCs no
        longer review TARs that a physician at the detention center has
        authorized.

        Nonetheless, MCCs and facility staff offered examples of how the
        TAR process is burdensome. Some ambulance companies have
        expressed problems with payment because transportation often is
        not authorized before the services are rendered. This delays
        payment for legitimate services provided to support care that had
        already been approved through the TAR process. Also, additional
        TARs are required for follow-up care to complete a course of
        treatment that an MCC has authorized.

        Decreasing the number of TAR denials can help detention facilities
        and the MCCs. Some facility clinicians told us that the TAR
        process creates difficulties, especially when additional clinical
        information is deemed necessary before care can be authorized.

      The U.S. Immigration and Customs Enforcement Process for 

         Authorizing Medical Care for Immigration Detainees 


                               Page 6
                          ICE has made an effort to decrease the administrative workload
                          that the TAR process creates. Automatic approval of some TARs,
                          for example, has lessened the work required for services that were
                          not previously denied. Facility staff praised the decision to
                          automatically approve TARs for chest x-rays to test for
                          tuberculosis. Staff noted that such approvals decrease staff burden,
                          especially when large numbers of detainees arrive at a facility on
                          the same day. MCCs and some facility staff recommended that
                          basic lab services also receive automatic approval.

                          Such a change is sensible. However, a more extensive shift in the
                          TAR process is warranted. Because of the low level of TAR
                          denials that actually lead to cost savings through rejection of
                          payment for non-covered medical care, ICE should change the
                          TAR process so that pre-authorization is required only for the most
                          costly services. This could be accomplished through automatic
                          approval of most services or elimination of the TAR submission
                          for most services. A dramatic reduction in the pre-authorization
                          burden would save resources currently used to deny a very small
                          number of requests.

                          In 1999, United HealthCare, the Nation’s second largest managed
                          care company, ended pre-authorization for its managed care
                          enrollees. The company, which served 14.5 million enrollees in
                          1999, determined that the pre-authorization process cost $128
                          million to administer while denying less than 1% of requested care.
                          Post care utilization reviews are conducted to ensure that providers
                          are not delivering uncovered services and to track which providers
                          are using an inordinate level of care.7 As previously stated, there
                          are significant differences between the health care needs of
                          enrollees in a commercial managed care company and immigration
                          detainees, but this example and other studies demonstrate that pre-
                          authorization can be an unnecessary burden on a managed care
                          program.8

                          Managed care organizations that have elected to change pre-
                          authorization policies can still use the practice in limited cases.
                          Some companies maintain a pre-authorization requirement based
                          on the frequency of service. Other companies maintain the



7
  “Managed Retreat,” The Economist, November 13, 1999; “How One Big HMO Capitulated,” Time,

November 22, 1999. 

8
  “Prior Authorization of Newer Insomnia Medications in Managed Care: Is It Cost Saving?” J Clin Sleep 

Med. 2007 June 15; 3(4): 393–398


                        The U.S. Immigration and Customs Enforcement Process for 

                           Authorizing Medical Care for Immigration Detainees 


                                                 Page 7
                       requirement for the most costly services, such as inpatient hospital
                       admissions.9

                       A challenge to the successful transition from the current TAR
                       process is the wording of the Covered Services Package, which
                       establishes coverage policy for detainee medical care. More
                       precise coverage guidance would be necessary if care pre-
                       authorizations were decreased or eliminated. An MCC informed
                       us that a system with little or no pre-authorization must have more
                       specific coverage guidance to prevent “creative” facilities or
                       providers from arranging for or providing care that is not within
                       the scope of coverage.

                       The Covered Services Package resembles the documents that
                       managed care companies use to inform enrollees of their coverage
                       options. For example, the document is organized around different
                       types of health services, such as cardiology, general surgery, and
                       hearing services. However, current coverage guidance is
                       somewhat contradictory. For general surgery, for example, DIHS
                       has established that “Scheduled, non-emergency surgical services
                       are not a covered benefit. Requests will be reviewed on a case by
                       case basis.” Similar guidance appears for various other services.

                       DIHS staff we interviewed said that the current Covered Services
                       Package, finalized in 2005, is outdated. Revisions to the document
                       should account for changes in technology and accepted medical
                       practice.

                       We recommend that the Assistant Secretary, U.S. Immigration and
                       Customs Enforcement:

                       Recommendation #1: End or greatly reduce the amount of pre-
                       authorization required under the Treatment Authorization Request
                       process.

                       Recommendation #2: Revise the Covered Services Package to
                       provide more guidance on coverage policy for a process that
                       minimizes pre-authorization of most services.




9
 “Old Techniques Never Die, Nor Even Fade Away,” Managed Care, January 2006; “New Imaging
Controls Strict, But May Be Easier On Doctors,” Managed Care, November 2007.

                     The U.S. Immigration and Customs Enforcement Process for 

                        Authorizing Medical Care for Immigration Detainees 


                                              Page 8
Managed Care Coordinators Face a Variety of Challenges

           Staffing Limitations Hinder the Coordinator’s Efficiency

           All MCCs said that the volume of TAR submissions is
           overwhelming, resulting in a high turnover rate among MCCs.
           MCC staffing levels have declined dramatically since April 2006,
           when there were eight MCCs. Since 2006, four MCCs have handled
           the TAR workload. The decline in the number of MCCs is one
           reason for the strain on the remaining MCCs. At the conclusion of
           our fieldwork, we were informed that two of the four remaining
           MCCs would soon be taking other positions. Plans to replace the
           two departing MCCs and add two more were in development, but
           concern existed that the training and transition period for new MCCs
           would create new short-term burdens for the remaining MCCs.

           The coordinators reported that the high number of TAR
           submissions caused a great deal of stress. If pre-authorization
           work could be reduced, MCCs could become more involved in
           care coordination and provider retention. This offers a much
           greater value to ICE than placing the MCCs in a high-stress
           environment that approves nearly all TARs—about 850 per week.
           Even with this pressing workload, most TARs are approved
           quickly. Between the start of FY 2005 and the end of FY 2008, the
           maximum average amount of time needed to approve or deny a
           TAR request was slightly more than 4 days. Facility experts we
           interviewed said that most approvals take 1 or 2 days.

           MCCs expressed frustration with their collateral duty of resolving
           general system-related issues for TARWeb users. The MCCs are
           the point of contact for connection or password problems. MCCs,
           who are registered nurses, not computer systems experts, said that
           they spend too much time on system-related issues. DIHS officials
           said that the DIHS systems support office is also understaffed and
           reluctant to make system changes or process requests for TARWeb
           access without authorization from management. Individuals other
           than the MCCs should resolve system-related problems. The
           MCCs would then be able to focus on their core responsibilities.

           We recommend that the Assistant Secretary, U.S. Immigration and
           Customs Enforcement:

           Recommendation #3: Make appropriate policy changes so that
           managed care coordinators are no longer responsible for facilities’
           TARWeb system access and password reset issues.

         The U.S. Immigration and Customs Enforcement Process for 

            Authorizing Medical Care for Immigration Detainees 


                                  Page 9
  Improvements to TARWeb Would Enhance the Process

  Although TARWeb collects a large amount of data, facilities staff
  noted the system’s minimal analytical capabilities. TARWeb does
  not provide facilities with information such as detailed reports on
  detainee health care trends. Some detention facilities have created
  their own internal detainee health care tracking tools. If TARWeb
  provided data analysis reporting, the facilities would be better able
  to understand the services provided to detainees. We encourage
  DIHS to solicit information regarding specific reports to ensure
  that the reporting function meets facilities staff needs.

  Also needed is a method to prioritize TAR submissions. Larger
  immigration detention facilities can experience a sizeable number
  of detainee intakes in a single day. Although care for emergency
  conditions does not require pre-authorization, routine TARs can be
  of varying severity levels. TARs are reviewed on an as-received
  basis. TARWeb does not have a method to indicate which requests
  are more urgent. A prioritization function would decrease the
  volume of calls MCCs receive for expedited review of particular
  TARs and create a more efficient workflow.

  We recommend that the Assistant Secretary, U.S. Immigration and
  Customs Enforcement:

  Recommendation #4: Develop TARWeb data reporting
  capabilities that incorporate the suggestions of facilities’ staff.

  Recommendation #5: Develop a prioritization system in
  TARWeb for facilities to identify more urgent detainee medical
  care requests.

  Expanded MCC Work in Case Management Is Necessary

  The MCCs are overwhelmed with TARs and other duties that
  diminish their ability to function as case managers. Nonetheless,
  case management is important for some ICE detainees. For
  example, cancer patients require detailed case management to
  understand the ongoing clinical issues of each case. Follow-up
  care is a vital part of ongoing health maintenance for various
  medical conditions. The current TAR process allows for case
  management, but an expansion of the MCC role in the process is
  necessary.


The U.S. Immigration and Customs Enforcement Process for 

   Authorizing Medical Care for Immigration Detainees 


                        Page 10
  Case management is an essential component of any managed care
  system. The Case Management Society of America defines case
  management as:

    A collaborative process of assessment, planning, facilitation
    and advocacy for options and services to meet an individual’s
    health needs through communication and available resources
    to promote quality cost-effective outcomes.

  An online job description listed case management as a primary
  function of the MCC position. Through work with detention
  facilities and medical providers, MCCs collaborate to develop care
  plans for detainees who have specific health problems, such as
  cancer or chronic diseases. Case management can benefit ICE as
  well as detainees, since it can help to identify providers who can
  provide follow-up health services. Although many detained aliens
  are in ICE custody for only a few days, those with severe health
  problems can benefit from case management.

  Case management can be time-consuming because of the variables
  in each detainee’s medical history and condition. MCCs noted that
  additional training on case management is necessary. Currently,
  MCCs are not required to be certified case managers. One
  clinician said that, owing to the pressing nature of other MCC
  duties, “true case management does not happen in some cases.”
  More MCC staff and a reduction in the pre-authorization workload
  would ensure that the case management principle is fully
  implemented for ICE detainees.

  MCCs described the case management process as a burden in some
  instances. Additional staffing would help MCCs evaluate
  detainees’ health conditions, develop and implement discharge
  plans, coordinate medical resources, and monitor detainee
  progress. MCCs said that they do not have enough time to manage
  the cases of some detainees. Moreover, a large amount of work
  can be necessary to coordinate with hospitals and facility staff to
  understand the ongoing condition of a particular detainee.

  Detention facility staff had a variety of opinions on the case
  management process. In many cases, facilities are not very
  involved in the process, which frustrates some onsite clinicians.
  Conversely, one facility staff member concluded that clinical staff
  at the detention facility is “drowning” in the details of some cases
  because of interaction with hospitals, discharge planning, and

The U.S. Immigration and Customs Enforcement Process for 

   Authorizing Medical Care for Immigration Detainees 


                        Page 11
            patient information requests. MCCs can interact daily with
            hospital and facility staff regarding each detainees’ case. More
            case management will help MCCs support the managed care
            program and will ensure more consistent involvement in case
            management across detention facilities. The case management
            process is important for effective detainee care.

            We recommend that the Assistant Secretary, U.S. Immigration and
            Customs Enforcement:

            Recommendation #6: Develop policies that formalize necessary
            training and an expanded case management role for the managed
            care coordinators.

Detention Facilities Need Assistance Working With Providers

            Maintenance of Outside Provider Relationships Is Difficult

            ICE must compete with other health plans and payers for access to
            outside medical services. This is an inherent difficulty for ICE.
            Detention facility staff cited cases where health care providers
            elected not to treat ICE detainees any longer. Some providers,
            staff believed, felt that their other patients would find it
            uncomfortable to share a waiting room with someone wearing a
            prison uniform and in hand and leg restraints. Also, delays in
            claims payment were a concern of providers. Physicians and
            hospitals may elect not to treat ICE detainees if several months
            pass before they receive payment for authorized care. ICE officers
            we interviewed said that they occasionally receive calls from
            collection agencies because of unpaid medical bills. One frustrated
            TAR expert at a facility said, “No one wants to take this
            insurance.”

            TAR experts at the facilities we visited provided details on care
            access concerns. Even facilities in urban areas can have problems
            finding providers who will care for ICE detainees. These problems
            are compounded when facilities are located far from concentrations
            of hospitals or physicians. Ensuring that certain specialists, such
            as neurologists or psychiatrists, remain interested in seeing ICE
            detainees is of concern across several facilities. Even when
            providers are located, some specialist visits require that detainees
            be transported to urban areas distant from the facility.

            Detention facility personnel said that they are actively working to
            maintain provider networks with hospitals and doctors that treat

          The U.S. Immigration and Customs Enforcement Process for 

             Authorizing Medical Care for Immigration Detainees 


                                  Page 12
  detainees. This requires frequent e-mails or conversations about
  providers’ problems, usually related to claims payment. One
  facility expert, who feels like a “telemarketer” when trying to
  convince providers to treat detainees, noted that thank-you notes
  and holiday cards are sent to providers to ensure continued access
  to certain services. MCCs may sometimes be involved in
  resolving provider issues. Imminent collapse of provider access
  does not seem likely across the facilities we visited. However,
  efforts are needed to ensure more timely and frequent access to
  authorized care.

  Correcting delays in provider payments can also save federal
  funds. Experts at the Veterans Affairs Financial Services Center
  (FSC), which processes claims for ICE, said that the FSC requires
  a revenue flow to make timely payments to providers. However,
  quarterly payment by ICE to the FSC is sometimes delayed. In
  those situations, provider payments are not processed within the
  30-day period required under the Prompt Payment Act. Claims
  paid after 30 days accrue interest that must be paid to providers.
  FSC data established that interest payments resulting from delays
  in the ICE funding transfer amounted to $110,081 from October
  2007 through March 2009, an average of $6,115 per month. This
  is a waste of tax dollars, as well as a source of payment delays to
  providers, which can decrease their desire to treat ICE detainees.

  Difficulty finding medical providers increases the amount of time
  between authorization of a TAR and the provision of needed health
  services. We asked for any analysis or studies that have tracked
  the length of time between approval of a TAR and the medical
  appointment. ICE has not completed such an analysis. Data
  related to the gap between TAR approval and receipt of health
  services would identify facilities that are having difficulty
  arranging for outside detainee care. Such analysis could detect
  when more effort is needed to establish or maintain provider
  relationships. Shortages in outside medical providers could be
  corrected at some facilities through the use of DIHS clinical
  personnel.

  We recommend that the Assistant Secretary, U.S. Immigration and
  Customs Enforcement:

  Recommendation #7: Expand managed care coordinator support
  to detention facilities to improve maintenance of relationships with
  outside care providers.


The U.S. Immigration and Customs Enforcement Process for 

   Authorizing Medical Care for Immigration Detainees 


                        Page 13
  Recommendation #8: Ensure more timely transfer of funds to the
  Financial Services Center to increase compliance with the Prompt
  Payment Act and to decrease interest paid on authorized medical
  claims.

  More Provider Education Would Enhance the Overall Process

  Outside medical providers furnish necessary medical care to
  immigration detainees. These providers work with a wide range of
  public and private insurance, but often do not know ICE’s
  coverage rules or how to submit claims properly after an approved
  TAR denotes that care can be reimbursed. This leads to
  unnecessary payment denials and frustration among providers.
  Enhanced efforts to educate providers about the payment process
  would have a positive effect on ICE’s relationships with providers.

  For the first 6 months of FY 2009, the FSC denied 38.5% of
  medical claims submitted for ICE detainees. During our interview
  with FSC staff, they suggested that ICE create a handout for
  medical providers that would describe elements of the TAR
  process and claims payment rules. ICE officers who transport
  detainees to provider offices may not be able to convey the details
  of medical coverage policies or information required for payment
  of claims. A written document presented to hospitals or physicians
  should improve providers’ understanding of the process.

  Detention facility and FSC staff said that claims often do not
  include required information, such as the Alien Number, used to
  identify detainees. Another important part of a claim that can be
  missing is the date of service. This is necessary to ensure that the
  individual was an ICE detainee when services were rendered. We
  were told that some providers did not submit claims within the
  deadline established in policy. The additional information should
  also be available on the DIHS website.

  We recommend that the Assistant Secretary, U.S. Immigration and
  Customs Enforcement:

  Recommendation #9: Create provider education materials to
  ensure better understanding of the ICE detainee health care process
  and the need for accurate and timely submission of claims.




The U.S. Immigration and Customs Enforcement Process for 

   Authorizing Medical Care for Immigration Detainees 


                        Page 14
  Local or Regional MCCs Would Offer Various Benefits

  Currently, MCCs are based at DIHS headquarters. A limited
  number of local or regional MCCs would provide an important
  presence to augment detention facilities’ staff efforts to work with
  providers and supplement case management. DIHS clinicians in
  headquarters and at detention facilities expressed support for the
  establishment of regional MCC positions. Use of regional MCCs
  should not eliminate the need for a certain number of MCCs at
  DIHS headquarters. Having some MCCs in Washington, DC is
  sensible, especially since meetings with the DIHS Medical
  Director and ICE detention staff are an important part of an MCC’s
  overall role.

  Regional MCCs would be the conduit for local issues between
  detention facilities and ICE. Provider retention and education
  efforts would be another obvious role for regional MCCs. Facility
  staff we interviewed said that recruiting new providers or
  maintaining existing networks is a vital, but burdensome, aspect of
  the detainee health care process. Regional MCCs would contribute
  to facilities’ provider relations efforts.

  Figure 3 shows two groups of four facilities that combined
  accounted for 23.4% of TAR submissions in the first 6 months of
  FY 2009. Regional MCCs based in both areas could function as
  the primary contact for care authorizations, medical records issues,
  and claims problems.




The U.S. Immigration and Customs Enforcement Process for 

   Authorizing Medical Care for Immigration Detainees 


                        Page 15
             Figure 3. Possible Jurisdictions for Two Regional MCCs




             Source: OIG, derived from multiple sources.

             DIHS field MCCs could also perform Covered Services Package
             education efforts that would be necessary if ICE shifts to decreased
             pre-authorization. This additional education would be national in
             scope, but a regional MCC would offer direct support for it at a
             small number of nearby facilities. Regional MCCs could also
             work with ICE officers who receive inquiries about health
             coverage or medical claims to support resolution of problems and
             expand outreach to those medical providers.

             We recommend that the Assistant Secretary, U.S. Immigration and
             Customs Enforcement:

             Recommendation #10: Implement a regional managed care
             coordinator staffing plan and develop supplemental policies that
             describe the roles and responsibilities of these new personnel.

Conclusion
     This report focused on the strategic management of the ICE Treatment
     Authorization Request process. Additional case management and
     enhancements to the way ICE authorizes and pays for medical services
     will improve overall detainee health care. A dramatic change to the TAR
     submission process can support expanded case management and a greater
     focus on retaining physicians and hospitals in areas near ICE detention
     facilities. Facility staff and clinicians we interviewed showed a
     commendable devotion to caring for immigration detainees. With a

          The U.S. Immigration and Customs Enforcement Process for 

             Authorizing Medical Care for Immigration Detainees 


                                   Page 16
     reduction in the administrative burden associated with the TAR process,
     local MCCs, and expanded support to facilities, ICE can better meet its
     legal responsibilities for detainee health care.

Management Comments and OIG Analysis
     ICE concurred with each of our ten recommendations. We evaluated
     ICE’s written comments and have made changes to the report where we
     deemed appropriate. A summary of the ICE response to our
     recommendations and our analysis is included below. A copy of the ICE
     response, in its entirety, is included as Appendix B.

     We have closed Recommendation #3 because ICE has taken corrective
     action. Our remaining nine recommendations are resolved and open
     pending additional information in the ICE corrective action plan due
     within 90 days of the issuance of this report.

     Recommendation #1: End or greatly reduce the amount of pre-
     authorization required under the Treatment Authorization Request process.

     Management Comments to Recommendation #1

     ICE informed us that DIHS is implementing revisions that will greatly
     reduce the need for pre-authorization for necessary care. DIHS will also
     no longer require a TAR for follow-up visits related to care that was
     already authorized. Additional analysis will be done to reduce the burden
     of the care authorization process.

     OIG Analysis

     This recommendation is resolved and open pending further details on the
     prior authorization process. Additional details on specific changes made
     will demonstrate that the TAR process is being streamlined effectively.

     Recommendation #2: Revise the Covered Services Package to provide
     more guidance on coverage policy for a process that minimizes pre-
     authorization of most services.

     Management Comments to Recommendation #2

     ICE intends to have a draft revision to the CSP prepared soon. This new
     version of the coverage guidance will include information about the move
     toward significantly less prior authorization.



          The U.S. Immigration and Customs Enforcement Process for 

             Authorizing Medical Care for Immigration Detainees 


                                  Page 17
OIG Analysis

This recommendation is resolved and open. As part of the corrective
action process, ICE should provide the OIG a copy of the revised CSP and
additional detail on how the CSP will diminish pre-authorization for
detainees’ medical care.

Recommendation #3: Make appropriate policy changes so that managed
care coordinators are no longer responsible for facilities’ TARWeb system
access and password reset issues.

Management Comments to Recommendation #3

In June 2009, changes were implemented that relieved MCCs of the
responsibility for responding to system access and password problems.

OIG Analysis

This recommendation is closed. No further action is required.

Recommendation #4: Develop TARWeb data reporting capabilities that
incorporate the suggestions of facilities’ staff.

Management Comments to Recommendation #4

ICE noted that work is being done to revise TARWeb data fields and
integrate staff suggestions. Additional review will take place to determine
whether suggested changes are feasible.

OIG Analysis

This recommendation is resolved and open. In the corrective action
process, ICE should inform us of changes that have been suggested, and
actions taken.

Recommendation #5: Develop a prioritization system in TARWeb for
facilities to identify more urgent detainee medical care requests.

Management Comments to Recommendation #5

ICE acknowledged that this recommendation would improve the
timeliness of authorizing detainee care. DIHS will explore how a
prioritization system would work to ensure that MCCs are able to address
those non-emergency TARs that are a higher priority.


     The U.S. Immigration and Customs Enforcement Process for 

        Authorizing Medical Care for Immigration Detainees 


                             Page 18
OIG Analysis

This recommendation is resolved and open. We share ICE’s view that a
prioritization system, even with fewer TARs requiring authorization, can
improve timeliness of detainee access to health care. However, ICE’s
formal response did not provide detail on how and when the system will
be changed to accommodate this change.

Recommendation #6: Develop policies that formalize necessary training
and an expanded case management role for the managed care
coordinators.

Management Comments to Recommendation #6

ICE noted that the MCCs are vital to the managed care program.
Management is interested in facilitating necessary training, including a
focus on case management, to ensure that MCCs remain informed about
new information in their field. DIHS will consider a recurrent training
plan to meet the needs of the MCCs.

OIG Analysis

This recommendation is resolved and open. The focus of this
recommendation is an expanded case management role. Once that is
developed, MCCs will require formal case management training. We
request ICE provide information about progress in these areas in its
Corrective Action Plan.

Recommendation #7: Expand managed care coordinator support to
detention facilities to improve maintenance of relationships with outside
care providers.

Management Comments to Recommendation #7

DIHS will evaluate expanding the number of managed care coordinators
that support this program. Under consideration is providing a minimum of
two managed care coordinators for each of the three regions. This would
allow for backup should a coordinator be out of the office. It would also
allow more support to assist the facilities with case management of some
of the more complicated medical patients.




     The U.S. Immigration and Customs Enforcement Process for 

        Authorizing Medical Care for Immigration Detainees 


                             Page 19
OIG Analysis

This recommendation is resolved and open. The ICE Corrective Action
Plan should provide us with detail about specific new responsibilities
MCCs will be given to nurture and sustain relationships with providers.

Recommendation #8: Ensure more timely transfer of funds to the
Financial Services Center to increase compliance with the Prompt
Payment Act and to decrease interest paid on authorized medical claims.

Management Comments to Recommendation #8

ICE managers welcomed this recommendation in our meetings related to
the draft report. Action on this recommendation includes review of budget
and financing procedures related to the transfer of needed funds to the
FSC.

OIG Analysis

This recommendation is resolved and open. ICE’s corrective action plan
should include data showing the amount of interest paid since our
fieldwork concluded. Policy changes should focus on fuller compliance
with the Prompt Payment Act.

Recommendation #9: Create provider education materials to ensure
better understanding of the ICE detainee health care process and the need
for accurate and timely submission of claims.

Management Comments to Recommendation #9

ICE’s response noted that DIHS will create the recommended training
materials.

OIG Analysis

This recommendation is resolved and open. We require additional details
on the types of training material created to address this issue. ICE should
also provide a timeline to show how much new material is planned and
how it will be made available to providers.

Recommendation #10: Implement a regional managed care coordinator
staffing plan and develop supplemental policies that describe the roles and
responsibilities of these new personnel.




     The U.S. Immigration and Customs Enforcement Process for 

        Authorizing Medical Care for Immigration Detainees 


                             Page 20
Management Comments to Recommendation #10

ICE’s response focused on future studies regarding the implementation of
a regional managed care coordinator system. DIHS used regional MCCs
and the agency remains open to re-implementing that paradigm.

OIG Analysis

This recommendation is resolved and open. Although ICE concurred with
the recommendation, ICE only committed to reevaluate the current model
and determine the feasibility of reinstituting regional MCCs. It is possible
that a complete and objective study will reveal costs and benefits that
argue against our recommended action. In that event, we will close the
recommendation. In its Corrective Action Plan, ICE should describe the
methodology and the timeline for the reevaluation analysis.




     The U.S. Immigration and Customs Enforcement Process for 

        Authorizing Medical Care for Immigration Detainees 


                             Page 21
Appendix A
Purpose, Scope, and Methodology

                   We initiated this inspection based on our continued interest in ICE
                   detention management operations. We sought to determine whether
                   the Treatment Authorization Request process was efficient. Our
                   research included legal cases and literature on the health care
                   industry and immigration detention. Our review of ICE data
                   focused on the 30-month period from October 2006 through March
                   2009.

                   We conducted 24 interviews, which included MCCs, DIHS
                   physicians, and staff in the ICE Office of Professional
                   Responsibility and the DHS Office for Civil Rights and Civil
                   Liberties. We had a phone interview with experts at the FSC of the
                   Department of Veterans’ Affairs in Austin, Texas. We interviewed
                   clinical staff at seven detention facilities and had phone
                   conversations with five others. The facilities were selected to
                   ensure input from geographically diverse locations that had
                   submitted a significant number of TARs.

                   The seven facilities we visited were:
                      •	 Berks County Family Residential Facility, Leesport, 

                          Pennsylvania

                      •	 El Paso Service Processing Center, El Paso, Texas
                      •	 Eloy Contract Detention Facility, Florence, Arizona
                      •	 Pinal County Detention Facility, Florence, Arizona
                      •	 Port Isabel Service Processing Center, Los Fresnos, Texas
                      •	 Willacy Contract Detention Facility, Raymondville, Texas
                      •	 York County Prison, York, Pennsylvania

                   Our phone conversations were with facility staff at:
                      •	 Buffalo Contract Detention Facility, Batavia, New York
                      •	 Etowah County Detention Center, Gadsden, Alabama
                      •	 Kenosha County Detention Center, Kenosha, Wisconsin
                      •	 North Las Vegas Detention Center, North Las Vegas,
                         Nevada
                      •	 Northwest Detention Center, Tacoma, Washington

                   These 12 facilities accounted for 28.7% of TARs submitted in the
                   first 6 months of FY 2009 and 20.6% of the TARs submitted
                   during the 30-month period of our review.

                   We conducted our review between February and June 2009 under
                   the authority of the Inspector General Act of 1978, as amended,


                 The U.S. Immigration and Customs Enforcement Process for 

                    Authorizing Medical Care for Immigration Detainees 


                                         Page 22
Appendix A
Purpose, Scope, and Methodology

                   and according to the Quality Standards for Inspections issued by
                   President’s Council on Integrity and Efficiency.




                 The U.S. Immigration and Customs Enforcement Process for 

                    Authorizing Medical Care for Immigration Detainees 


                                         Page 23
Appendix B
Mana~ement Comments to the Draft Report


                                                                          QJjìct 01'"''    "am Sic'L'ft.-'ltH)'

                                                                          II.S.1L.i~rlll" ,Iiif lL-'e"id St,.rit)'
                                                                          50012'" Si 'l. SW
                                                                          W;ishinglmi, DC 20024


                                                                          u.s. Immigration
                                                                          and Customs
                                                                          Enforcement



                                               November 5, 2009



        MEMORANDUM FOR: Carlton i. Mann
                                  Offce of Inspector General


        FROM:                     Robert F. De Antonio
                                  Director
                                  Audit Liaison Oflcc

        SUBJECT:                  ICE Response to Offce of Inspector General Draft Report titled, "The
                                  Immigration and Customs Enforcement Process tor Authorizing
                                  Medical Care for Detained Immigrants"

        U.S. Immigration and Customs Enforcement (ICE) providcs the following response to the
        subject Office of the Inspector General (OIG) dratl report,


        010 Reconunendations I: "End or greatly reduce the amount of preauthori:i.ation required under
        the Treatment Authorization Request process."

        ICE Response to 010 Recommendation i: ICE concurs. The Division of Immigration Health
        Services (D1HS) is developing a process that expands the ability for the automatic approval of
        some requests by the on-site clinical director or designee. Automatic approval wil save time and
        allow faster access to necessary care lor detainees. DIHS is also developing a systein that will
        negate the need to submit multiple Treatment Authorization Requests (TARs) for certain
        conditions. For example, if a detainee is pregnant, all her prenatal visits, lab WOlk and tests wil
        be grouped into one request. There arc many instances where this "grouping" or "bundling" of
        services can be utilzed. This wil alleviate the need to submit a TAR for each service, greatly
        reducing the number ofT ARs subinitted overalL. D1HS is also exploring other ways to address
        this recommendation to realize greater effciencies in providing health services to detainees.

        010 Recommendation 2: "Revise the Covered Services Package to provide more guidance on
        covcmge policy tor a proccss that minimizes pre-authorization of most services."




                      The U.S. Immigration and Customs Enforcement Process for
                         Authorizing Medical Care for Immigration Detainees

                                                     Page 24
Appendix B
Management Comments to the Draft Report


             Subject: ICE Response to 010 Draft Report: "The lnuigration and Customs
             Enforcement Process for Authorizing Medical Care for Detained Inuigrants

             Page 2 ofJ




             ICE Response to OiG Recommendation 2: ICE concurs. DIHS has already bcgun this
             proce.qS and expects to have draft guidance prepared by the end of         November 2009. The
             new package will milÚmize the need for pre-authorization for a number of serviccs.

             010 Recommendation 3: "Make appropriate policy changes so that managed care
             coordinators are no longer responsiblc for facilties' TARWeb system access and
             password rcset issues."

             ICE Response to OIG Reconunendation 3: ICE concurs. DIHS has already addresscd
             this reconuendation and our Infonnation Technology (IT) personnel now have this
             responsibility. This change was implementcd Jiinc 19, 2009.

             010 Reconuendation 4: "Develop T ARWeb data reporting capabilities that incorporate
             the suggestions of facilities' stalT.

             ICE Response to 010 Reeommendation 4: ICE concurs, DIHS is already working with
             its IT department to revise fields in TARWeb and will review to detemiine the feasibilty
             of implementing these fields.

             oiG Reconunendation5: "Develop a prioritization system in TARWeb for facilities to
             identifY more urgent detainee medical care requests."

             ICE Response to 010 Recommendation 5: ICE coneurs. This would assist in
             identifYing the requests for non-emergency services that are ofa high priority. DlliS is
             willng to cxplore developing a prioritization system to classify these urgent care services
             and to modify the TAR Web system to be able to prioritize and highlight urgent requests.

             010 Recommendation 6: "Devclop policies that fòniialize necessary training and an
             expanded case management role for the managed care coordinators."

             ICE Response to OIG Recommendation 6: ICE concurs. The strength otthe managed
             carc program model is the nurse case inanagers. Therefore, every effort wil be made for
             the staff to be able to keep abreast of  the emerging policies and practices in nursing and
             specifically in the case managemcnt field. D1HS will review the feasibility of adding this
             training to their standard recurrent training 1,lan.

             010 Recommendation 7: "Expand managcd care coordinator support to detention
             làcilities to improve maintenance of relationships with outside care providers."

             ICE Response to 010 Reconunendation 7: ICE concurs. DIHS wíl evaluate expanding
             the number of managed care coordinators that support this program. Under considemtion
             is providing a minimum of      two managed care coordinators for each of      the three regions.
             This would allow for backup should a coordinator be out of the offce. It would also




                        The U.S. Immigration and Customs Enforcement Process for

                           Authorizing Medical Care for Immigration Detainees


                                                          Page 25
Appendix B
Management Comments to the Draft Report


             Subject: ICE Response to OIG Draft Report: "The Immigration and Customs
             Enforcement .Process for Authorizing Medical Care for Detained Immigrants
             Page 3 of3


             allow more support to assist the facilities with case management of some olthe more
             complicated medical patients.

             010 Recommendation 8: "Ensure more timely transfer of lùnds to the Financial Services
             Center to increase eompliance with the Prompt Payment Act and to deercase interest paid
             on authorized medical claims."

             ICE Response to 010 Recommcndation 8: ICE concurs. ICE will rcview its budget and
             financing procedures to ensure that the funding to support processing of claims through
             the Veterans Administration is done in a timely manner.

             010 Recommendation 9: "Create provider education materials to ensure better
             understanding of the ICE detaince health carc process and the need lor accuratc and
             timely submission of claims."

             ICE Response to 010 Recommendation 9: ICE concurs. DIBS will develop educational
             materials and training lòr the providers that delivcr healthcare to the ICE detainees to
             help their administrators better understand this process.

             010 Recoinmendation 10: "Implement a regional managed care coordinator staffng
             plan and develop supplemental policies that describe the roles and responsibilities of
             these new persoruieL"

             ICE Response to 010 Recommendation 10: ICE concurs. Wc agrec to provide existing
             managed coordinators with clarilcation and infonnation about their roles and
             rcsponsibilities. The spccific roles and responsibilties for the nurse case managers will
             be reviewed and documented in the D1HS policies and standard operating plans as
             appropriate. DlHS previously used regional managed care coordinators. DIBS wil
             reevaluate that model to determine ifre-implementing it is lèasible and would result in
             effciencies being realizcd.

             Should you have questions or concerns, please contact Margurite Barnes, 010 portfolio
             manager at (202)732-4 I 6 I or bye-mail at M.i.ilrite.Barnesil)i;t,&\l.




                        The U.S. Immigration and Customs Enforcement Process for
                           Authorizing Medical Care for Immigration Detainees

                                                      Page 26
Appendix C
Major Contributors to This Report

                    Douglas Ellice, Chief Inspector
                    Darin Wipperman, Senior Inspector
                    Pharyn Smith, Inspector




                  The U.S. Immigration and Customs Enforcement Process for 

                     Authorizing Medical Care for Immigration Detainees 


                                          Page 27
Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      ICE and DRO Liaisons

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                  The U.S. Immigration and Customs Enforcement Process for 

                     Authorizing Medical Care for Immigration Detainees 


                                          Page 28

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
